SEC.gov |  Information Technology Cost Savings
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Information Technology Cost Savings
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Information Technology Cost Savings
Audit Report No. 236May 9, 1996
SUMMARY
We recommend that the Commission consider closing the  headquarters mainframe computer facility, to save money, ensure an adequate disaster recovery capability, and comply with Office of Management and Budget guidance.  In addition, we are making several other recommendations to enhance the efficiency of computer operations.
The Office of Information Technology (OIT) and the Office of the Executive Director commented on the draft report (see Appendix).  While OIT has started an internal review of the need for the headquarters facility, it questioned the methodology of cost estimates in the draft report.  After further analysis, we have deleted these estimates because of the difficulty in allocating costs to the headquarters mainframe facility.
OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to evaluate several possible cost saving measures we identified during a prior survey of the Office of Information Technology (OIT).  During the audit, we interviewed Commission and contractor staff, and analyzed relevant documentation.
The audit was performed from September to December 1995 in accordance with generally accepted government auditing standards.
AUDIT RESULTS
Consider Closing Headquarters Mainframe Facility
Besides its primary facility in Alexandria, Virginia (the Operations Center), the Commission has an IBM 3090 mainframe computer at headquarters which provides a limited disaster recovery capability.  A contractor operates the headquarters facility.
During the audit, we obtained cost data pertaining to the Commission's mainframe operations.  We also obtained cost quotations from commercial vendors for a "warm site" mainframe recovery capability.
Our preliminary analysis indicated that closing the headquarters facility and contracting for a disaster recovery capability could provide substantial cost savings.  In addition, the headquarters mainframe has a very small processing capacity (9-10.6 MIPS, or millions of instructions per second).  In the event of a disaster, this mainframe might not provide adequate capacity for all of the Commission's critical applications.
Recommendation A
OIT, in consultation with the Office of the Executive Director, should consider closing the headquarters mainframe facility and contracting with a Federal or commercial vendor for a disaster recovery capability.  It should prepare an appropriate written justification for this decision.  The justification should describe the extent of its market search for a suitable disaster recovery capability, and the rationale for selecting either a warm or hot site.
OIT indicated that in November 1995 it started an internal review of the need for the headquarters facility.
Comply with OMB Bulletin No. 96-02
To save money, the Office of Management and Budget is requiring agencies to close or consolidate small and mid-size data centers by mid-1998.  OMB Bulletin No. 96-02 specifies that IBM-compatible data centers must have a processing capacity of at least 325 millions of instructions per second (MIPS).
By June 3, 1996, agencies with data centers below this standard are required to develop a plan for outsourcing to other Federal or commercial data centers.  OMB will consider exceptions to the 325 MIPS standard on a case-by-case basis.
The Operations Center facility has a capacity of about 110-120 MIPS.  We understand that OIT wishes to keep this facility open past 1998.
Recommendation B
The Office of Information Technology and the Office of the Executive Director should comply with OMB Bulletin 96-02 by, among other actions, developing an outsourcing plan, or submitting an exception request to OMB.  The two offices should assign this issue a high priority, and establish internal deadlines for taking actions.
OIT indicated that it is working on this issue, and will comply with Bulletin 96-02.
Software Licenses Reviewed
Software licenses frequently allow the software to be used as a back-up without additional charge.  Since the headquarters mainframe facility is primarily used as a back-up to the Operations Center, these licenses need to be periodically reviewed for cost effectiveness.
OIT indicated that it performs these reviews.  In November of 1995, it sent letters to several software suppliers to ensure the Commission was not billed for copies of systems software installed on its back-up system, the headquarters IBM 3090 computer.  OIT indicated that the results were very successful and eliminated all software costs on the back-up system.
Use Automated Attendants
Automated attendants (software packages) are commercially available which can perform routine work currently handled by computer operators.  Several operators could be reassigned, saving money on computer operations.
Recommendation C
OIT should consider obtaining automated attendants for the mainframe facilities, and then reassigning operators, as appropriate.
OIT indicated that it began a review of this issue within the first week after the November 1995 OIT reorganization.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us